J. Michael Huget
Office: 734.418.4254
Mobile: 734.546.4553
mhuget@honigman.com

Via Electronic Filing
February 5, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543

Re:

American Axle & Manufacturing, Inc. v. Neapco Holdings LLC, et al
Case No. 20-891

Dear Mr. Harris,
I write on behalf of Respondents in the above-referenced case to request an extension of
time of 30 days, to and including March 31, 2021, for the filing of a brief in opposition to the
petition for a writ of certiorari in case number 20-891. Absent an extension, the brief would be
due on Monday, March 1, 2021. This is the first extension Respondents have sought.
Thank you for your attention to this matter.

Very truly yours,
HONIGMAN LLP
/s/ J. Michael Huget
J. Michael Huget
Counsel of Record for Neapco Holdings LLC
and Neapco Drivelines LLC, Respondents

cc:

Counsel for Petitioner American Axle & Manufacturing, Inc., via e-mail
Dennis J. Abdelnour
Sarah E. Waidelich

Honigman LLP • 315 East Eisenhower Parkway • Suite 100 • Ann Arbor, Michigan 48108-3330
37978006.1

